CERTIFICATE OF SERVICE
No. 19-968
Chike Uzuegbunam and Joseph Bradford,
Petitioners,
v.
Stanley C. Preczewski, Jann L. Joseph, Lois C. Richardson, Jim B. Fatzinger,
Tomas Jiminez, Aileen C. Dowell, Gene Ruffin, Catherine Jannick Downey,
Terrance Schneider, Corey Hughes, Rebecca A. Lawler, and Shenna Perry,
Respondents.
I, Eric D. McArthur, do hereby certify that, on this twenty-ninth day of
September, 2020, I caused three copies and an electronic copy of the Brief of Amicus
Curiae Frederick Douglass Foundation, Inc. in Support of Petitioners in the
foregoing case to be served by first class mail, postage prepaid, and by email, on the
following parties:
JOHN J. BURSCH
Alliance Defending Freedom
440 First Street, N.W., Suite 600
Washington, D.C. 20001
(616) 450-4235
jbursch@adflegal.org
Counsel for Petitioners

ANDREW ALAN PINSON
Office of the Georgia Attorney General
40 Capital Square, S.W.
Atlanta, GA 30334-1300
(404) 651-9453
apinson@law.ga.gov
Counsel for Respondents
/s/ Eric D. McArthur
ERIC D. MCARTHUR
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

